OIG Audit Report GR-60-07-006

Compliance with Standards Governing Combined DNA Index System Activities at the Metropolitan Forensic Science Center, Albuquerque, New Mexico

Audit Report GR-60-07-006


June 2007
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing Combined DNA Index System (CODIS) activities at the Metropolitan Forensic Science Center in Albuquerque, New Mexico.1 The Center consists of two CODIS-participating laboratories: the Albuquerque Police Department Crime Laboratory Biological Analysis Group (APD Laboratory) and the New Mexico DNA Identification System Administrative Center   (NMDIS Center).
The Federal Bureau of Investigation (FBI) began the CODIS Program as a pilot project in 1990. The DNA Identification Act of 1994 (Act) formalized the FBI’s authority to establish a national DNA index for law enforcement purposes.2 The Act authorized the FBI to establish an index of DNA identification records of persons convicted of crimes and analyses of DNA samples recovered from crime scenes. The Act further specified that the indices include only DNA information that is based on analyses performed in accordance with quality assurance standards issued by the FBI.
The FBI implemented CODIS as a distributed database with three hierarchical levels that enables federal, state, and local crime laboratories to compare DNA profiles electronically. The National DNA Index System (NDIS) is the highest level in the CODIS hierarchy and enables the laboratories participating in the CODIS Program to compare DNA profiles on a national level. NDIS became operational in 1998 and is managed by the FBI as the nation’s DNA database containing DNA profiles uploaded by participating states. DNA profiles originate at the local level, flow upward to the state and national levels, and are compared to determine if a convicted offender can be linked to a crime, or if crimes can be linked to each other. Thus, a laboratory’s profiles have to be uploaded to NDIS before the profiles benefit the system as a whole.
 The FBI provides CODIS software free of charge to any state or local law enforcement laboratory performing DNA analysis. Before a laboratory is allowed to participate at the national level, a Memorandum of Understanding (MOU) must be signed between the FBI and the applicable state laboratory. The MOU defines the responsibilities of each party, includes a sublicense for the use of the CODIS software, and delineates the standards laboratories must meet in order to utilize NDIS.3
 The objective of the audit was to determine if the Albuquerque CODIS laboratories were in compliance with standards governing CODIS activities. Specifically, we determined if the: (1) laboratories were in compliance with the NDIS participation requirements; (2) laboratories were in compliance with the quality assurance standards issued by the FBI; and (3) laboratories’ DNA profiles in CODIS databases were complete, accurate, and allowable.
We determined that the NMDIS Center and APD Laboratory were in compliance with the standards governing CODIS activities with some exceptions. Specifically, we noted the following.

We tested 10 cases where the CODIS software indicated an interstate candidate match between a known or unknown perpetrator and crime scene evidence. We found that, in one of the cases we tested, the NMDIS Center did not confirm the match within the time limits specified by the NDIS requirements. A series of delays in the confirmation process resulted in the match being confirmed in 6 months rather than 30 business days, as required. Laboratory management has since implemented mechanisms designed to expedite the match confirmation process, and has updated the NMDIS Center procedures manual to reflect use of these mechanisms. 
We determined that, due to emergency egress requirements, the APD Laboratory area, including the CODIS server it contained, was accessible to non-DNA personnel, and as such did not comply with NDIS requirements for the physical security of the CODIS server. Prior to leaving the Laboratory, we confirmed that Laboratory management was able to relocate the server to a separate room within the APD Laboratory where access was restricted to DNA personnel and Laboratory management. 
We determined that the APD Laboratory did not comply with its quality assurance manual because the CODIS manager it had designated to address the NDIS requirement for a CODIS administrator was not fully trained, and was therefore not managing the CODIS program for the Laboratory, as required by the quality assurance manual. Subsequent to our audit, Laboratory management designated another staff member to serve as the CODIS manager. 
We tested 100 convicted offender profiles and 100 forensic profiles and found 1 forensic profile was incomplete because the APD Laboratory did not load all of the required loci into NDIS, and 1 forensic profile was inaccurate because the APD Laboratory did not load the correct specimen number into NDIS.4 Both the inaccurate and incomplete profiles were corrected prior to the completion of our audit.
We determined that case files for 16 forensic profiles did not contain clear documentation that all appropriate administrative reviews had been performed. Laboratory management provided information indicating that administrative reviews were not yet required for these cases, based upon their status. Subsequent to our audit, Laboratory management provided documentation that they had supplemented the 16 case files with documentation of administrative reviews as appropriate to each case. Further, Laboratory management notified us that while completing corrective action for this finding, APD Laboratory staff identified a problem with a batch of contractor data from 2003. Laboratory officials provided us with a description of the complete course of corrective action they had begun to remedy this problem. 

Each of the findings we identified, which are discussed in detail in the Findings section of the report, were sufficiently addressed by the NMDIS Center’s and APD Laboratory’s corrective action, and therefore we make no recommendations. Our audit scope and methodology are detailed in Appendix I of the report and the audit criteria are detailed in Appendix II of the report. We discussed the results of our audit with Laboratory officials and have included their comments in the report as applicable.



Footnotes

DNA, deoxyribonucleic acid, is genetic material found in almost all living cells that contains encoded information necessary for building and maintaining life. Approximately 99.9 percent of human DNA is the same for all people. The differences found in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification characteristics (a DNA profile) for an individual by analyzing a specimen that contains DNA.
Pub. L. No. 103-322 (1994). 
These standards were appended to the MOU as Appendix C - NDIS Procedure Manual. This manual is comprised of several operational procedures that provide specific instructions for laboratories to follow for procedures pertinent to NDIS. For our purposes, the NDIS participation requirements consist of the MOU and the NDIS operational procedures.
A locus is a specific location on a chromosome. The plural form of locus is loci. 








Return to OIG Home Page